IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
No.
____________________________________
____________________________________
GEORGE SKLAR CLOUD
PETITIONER
-VSUNITED STATES OF AMERICA
RESPONDENT
_______________________________________
_______________________________________
MOTION FOR LEAVE TO PROCEED
ON FORMA PAUPERIS
Pursuant to Title 18, United States Code Section 3006A(d)(6) and Rule 39
of this Court, Petitioner, GEORGE SKLAR CLOUD, asks leave to file the
attached Petition for Writ of Certiorari to the United States Court of Appeals for
the Ninth Circuit without prepayment of fees or costs and to proceed in forma
pauperis.

PETITION FOR WRIT OF CERTIORARI

1

The Petitioner was represented by counsel appointed pursuant to Title 18,
United States Code Section 3006(a) on appeal to the Ninth Circuit Court of
Appeals.
Dated this 21st day of January 2021.
Respectfully Submitted,
NICHOLAS MARCHI
CARNEY & MARCHI, P.S.
7502 W. Deschutes PL.
Kennewick, WA 99336
(509) 545-1055
Attorneys for Petitioner

PETITION FOR WRIT OF CERTIORARI

2

No.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
GEORGE SKLAR CLOUD
PETITIONER
-VS.UNITED STATES OF AMERICA
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
The Petitioner, GEORGE SKLAR CLOUD, respectfully prays that a writ
of certiorari issue to review the judgment of the United States Court of Appeals
for the Ninth Circuit entered on October 22, 2020.

PETITION FOR WRIT OF CERTIORARI

3

ISSUE PRESENTED
Did the district court error when it allowed the government to introduce
into evidence the Petitioner’s guilty plea, in a separate pending matter, to the
federal charge of Discharge of a Firearm During a Crime of Violence in
violation of 18 U.S.C. 2119 and the facts of his pending federal charge of
Possession of Contraband in Prison in violation of 18 U.S.C. §1791.

PETITION FOR WRIT OF CERTIORARI

4

OPINION BELOW
On October 22, 2020, the Ninth Circuit entered its opinion affirming the
conviction and sentence of the Petitioner for Murder in the First Degree and
Discharging a Firearm During a Crime of Violence in violation of 18 U.S.C. §§
1111, 924(c). A copy of that opinion is attached as Appendix A.
JURISDICTION
Jurisdiction of this Court is invoked under Title 28 United States Code
Section 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
18 U.S.C. §1111 and 18 U.S.C. §924(c)
STATEMENT OF THE CASE
The Petitioner, hereinafter, Mr. Cloud is charged by Indictment with First
Degree Murder and Aiding and Abetting in violation of 18 U.S.C. §§§1111,
1153 and 2. He was also charged with Discharge of a Firearm During a Crime
of Violence and Aiding and Abetting in violation of 18 U.S.A §924(c)(1)(A) and
2 Mr. Cloud was found guilty by a jury on all counts on January 17, 2019. The

PETITION FOR WRIT OF CERTIORARI

5

district court sentenced Mr. Cloud to life in prison counts 1 and 10 years on
count 2, consecutive.
During the trial, Mr. Cloud filed several motions. He moved to exclude
certain evidence that the government sought to introduce. The information
included Mr. Cloud’s involvement in a prior carjacking and shooting; Mr.
Cloud’s plea to a federal charge; and Mr. Cloud’s alleged attempt to escape from
custody while this matter was pending. The district court denied the motion.
During proceedings, Mr. Cloud move to exclude evidence that he was
allegedly involved in a carjacking and the shooting of a person in that vehicle.
He also moved to exclude evidence that he had planned to escape from custody
during the pendency of the proceedings. Finally, he moved to exclude evidence
that he had plead guilty in 17-CR-2007 to Discharge of a Firearm During a
Crime of Violence; and in 16-CR-2053 to Felon in Possession of Ammunition.
The government maintained that the evidence of the shooting and the
carjacking were relevant to their theory to show that the victim was perceived by
Mr. Cloud to be a snitch and thus the reason that he killed her. They further
maintained that the car the body was found in was the same car in the
carjacking. Mr. Cloud disputed these facts.

PETITION FOR WRIT OF CERTIORARI

6

As noted, the district court allowed the government to present the
evidence on these issues. The district court also did give a limiting instruction
regarding the evidence that was admitted.

REASONS FOR GRANTING WRIT
Mr. Cloud maintained that the district court denied him a fair trial when
the district court allowed the introduction of the facts of the two pending
criminal matters.
Fed. R. Evid. 404(b), unequivocally prohibits the use of prior bad acts to
show a defendant's propensity to commit criminal acts: "Under Rule 404(b),
evidence of a defendant's prior crimes or wrongful acts may not be introduced to
show that the defendant has a bad character and is therefore more likely to have
committed the crime with which he is charged." United States v. Decinces, 808
F.3d 785, 790 (9th Cir. 2015); United States v. Brown, 880 F.2d 1012 (9th Cir.
1989), citing, United States v. Hodges, 770 F.2d 1475, 1479 (9th Cir.1985).

It

is true that Rule 404(b) does permit the use of prior bad acts for purposes other
than demonstrating propensity.

Such purposes include showing motive,

knowledge, opportunity, intent, preparation, plan, and absence of mistake. See,
Fed. R. Evid. 404(b)(2) (2013).

PETITION FOR WRIT OF CERTIORARI

7

Federal Rule of Evidence 403 bars the admission of evidence when the
danger of unfair prejudice substantially outweighs the probative value of the
evidence. See United States v. Lloyd, 807 F.3d 1128, 1151 (9th Cir. 2015). “A
district court’s Rule 403 determination is subject to great deference, because the
considerations arising under Rule 403 are susceptible only to case-by-case
determinations, requiring examination of the surrounding facts, circumstances,
and issues.” Id. at 1152
This general rule reflects the concern that a person charged with a crime
be convicted only if its elements are proved beyond a reasonable doubt. A
person should not be convicted merely because he or she has done prior bad
acts. Rule 404(b) will not be violated if the prior bad acts are relevant on some
issue in the current prosecution, such as “motive, opportunity, intent,
preparation, plan, knowledge, identity, absence of mistake, or lack of accident.”
Fed.R.Evid. 404(b). But when bad acts are not relevant, they can only be viewed
as being presented to inflame prejudice in the trier of fact, in which case they are
at odds with our fundamental premises on the need for a fair trial. And even
when relevant on some issue, evidence of prior bad acts should not, under
Federal Rule of Evidence 403, be admitted when its “probative value is
substantially outweighed by dangers of unfair prejudice, confusion on issues,
waste of time, or needlessly presenting cumulative evidence.” Fed.R.Evid. 403.

PETITION FOR WRIT OF CERTIORARI

8

A four-part test is used to determine the admissibility of evidence
pursuant to Rule 404(b): Such evidence may be admitted if: (1) the evidence
tends to prove a material point; (2) the other act is not too remote in time; (3) the
evidence is sufficient to support a finding that defendant committed the other
act; and (4) (in certain cases) the act is similar to the offense charged. United
States v. Romero, 282 F.3d 683, 688 (9th Cir. 2002).
The government “has the burden of proving that the evidence meets all of
the above requirements.” United States v. Arambula-Ruiz, 987F.2d 599, 602 (9th
Cir. 1993). “If the evidence meets this test under Rule 404(b), the court must
then decide whether the probative value is substantially outweighed by the
prejudicial impact under Rule 403.” Romero, 282 F.3d at 688.
In the case at bar, the district court allowed the government to present
evidence that Mr. Cloud was involved in a drive by shooting; that he had plead
guilty to Drive By shooting in a pending federal case; and that he planned on
escaping from federal custody, which was also a pending federal case.
The Ninth Circuit Court ruled that it was not unduly prejudicial as the
information was relevant to the charge. The Circuit Court found that even if it
was error, it was harmless.
Mr. Cloud maintained that the carjacking and the shooting were not
relevant and were unrelated. The car in which the body was found was not see

PETITION FOR WRIT OF CERTIORARI

9

at the trailer where the crime occurred. Additionally, the victim was not the
victim in the shooting and the carjacking. As for the evidence of escape and the
photo of the knife that was introduced, this also was not relevant.
Even if the evidence was relevant it was far too prejudicial to be admitted.
It was not harmless error. These were separate incidents charged in separate
causes. The admitted evidence portrayed Mr. Cloud as a violent offender and
had a propensity for violence. This prejudiced Mr. Cloud as it is clear that jury
most likely focused on these violent acts. This is further true given the fact the
jury was informed that Mr. Cloud plead guilty to the carjacking case.
CONCLUSION
For the forgoing reasons, petitioner respectfully submits that the petition
for the writ of certiorari should be granted.
Dated this 21st of January 2021.
Respectfully Submitted,
NICHOLAS MARCHI
CARNEY & MARCHI, P.S.
7502 W. Deschutes Pl.
Kennewick, WA 99336
(509) 545-1055
Attorneys for Petitioner

PETITION FOR WRIT OF CERTIORARI

10

